XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3919
Facsimile: (415) 703-2552
E-Mail: Samuel.Harbourt@doj.ca.gov

July 28, 2020
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

Lange v. California, No. 20-18
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 10, 2020. The response
to the petition is currently due on August 13, 2020. Pursuant to Rule 30.4, respondent California
respectfully requests that the time for filing a response be extended by thirty days, up to and
including Monday, September 14, 2020 (because thirty days from August 13 is September 12, a
Saturday). An extension of time would allow for adequate time for internal review and would
better enable preparation of a response that respondent believes would be most helpful to the
Court. Counsel for petitioner consents to this extension of time.
Respectfully submitted,
/s Samuel Harbourt
SAMUEL HARBOURT
Deputy Solicitor General
For
cc:

XAVIER BECERRA
Attorney General

Brian H. Fletcher
Counsel for Petitioner
Stanford Law School Supreme Court Litigation Clinic

